               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




               Postal Service
       Product Costing Methodologies

         Management Advisory Report




                                              April 11, 2013

Report Number MS-MA-13-002
                                                                         April 11, 2013

                                                     Postal Service Product Costing
                                                                     Methodologies

                                                       Report Number MS-MA-13-002



BACKGROUND:
The U.S. Postal Service is an               was to describe the background and
independent agency, expected to cover       history of the Postal Service’s current
its costs through revenue generation.       costing methodologies and identify
Current Postal Service accounting           concerns with those methodologies. The
systems, however, do not provide            second review will address alternatives
sufficient information to assign costs to   to the current costing methodologies
specific mail products and services.        and systems.
Therefore, various manual sampling,
statistical systems, and special studies    WHAT THE OIG FOUND:
have been used to estimate and assign       Postal Service stakeholders continue to
costs. These costs are presented in the     discuss whether the Postal Service’s
annual Cost and Revenue Analysis            current costing methodologies are viable
report. In 2010, the total budget for the   in today’s environment, given the
Revenue Reporting and Cost Analysis         changes in law, trends toward digital
group was $102 million, which includes      technology, and high costs of manual
manual data collection, statistical         sampling required with current costing
sampling, production of the Cost and        methodologies. The following areas
Revenue Analysis report, and other          appear to need improvement: (1) cost of
functions.                                  collecting data from manual sampling,
                                            statistical systems, and special studies;
The Postal Service’s business               (2) availability of timely cost reporting
environment has changed drastically         data; and (3) high costs that cannot be
over the past several decades with the      directly attributable to a product. In
rapid growth of digital technologies,       response to these concerns, Postal
such as electronic communication            Service officials recognize the need to
platforms and Intelligent Mail barcodes.    explore other options and requested a
The methods for Postal Service costing      second report in this series to
have evolved over the last 40 years to      benchmark costing methodologies of
address new products and services and       foreign posts.
to meet changing guidelines.
                                            WHAT THE OIG RECOMMENDED:
This report is the first of two reviews     We did not make any recommendations
requested by the Postal Service chief       in this report.
financial officer and executive vice
president. The objective of our review      Link to review the entire report
April 11, 2013

MEMORANDUM FOR:            JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND
                            EXECUTIVE VICE PRESIDENT


                                 E-Signed by Inspector General
                             VERIFY authenticity with eSign Desktop

FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Management Advisory – Postal Service Product Costing
                           Methodologies (Report Number MS-MA-13-002)

This report presents the results of our review of the U.S. Postal Service’s Product
Costing Methodologies (Project Number 13RG005MS000).

We appreciate the opportunity to provide this information to you, and hope you find it
helpful. If you have any questions or need additional information, please contact
Janet M. Sorensen, director, Sales and Marketing, or me at 703-248-2100.

Attachments

cc: Steven R. Phelps
    Joseph E. Nash
    Virginia J. Mayes
    Corporate Audit and Response Management
Postal Service Product Costing Methodologies                                                                      MS-MA-13-002




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Background .................................................................................................................... 2

Current Costing Methodologies ....................................................................................... 4

   Costing Principles Used by the Postal Service ............................................................ 4

   Cost Pool Formation .................................................................................................... 5

   Cost Attribution ............................................................................................................ 5

   Cost Distribution .......................................................................................................... 5

   The Role of Statistical Systems ................................................................................... 6

Challenges ...................................................................................................................... 6

   The Cost of Statistical Systems and Studies ............................................................... 6

   Availability of Timely Cost Reporting Data ................................................................... 7

   High Institutional Costs ................................................................................................ 7

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Glossary .................................................................................................... 12

Appendix C: Attribution and Distribution of Costs .......................................................... 14
Postal Service Product Costing Methodologies                                                       MS-MA-13-002



Introduction

This report presents the results of our review of the U.S. Postal Service’s product
costing methodologies (Project Number 13RG005MS000). The report responds to a
request from the Postal Service’s chief financial officer and executive vice president.
This is the first of two reviews. The objective of this review was to describe the
background and history of the Postal Service’s current costing methodologies as well as
identify concerns with those methodologies. The second review will address alternatives
to the current costing systems. This review addresses financial risk. See Appendix A for
additional information.

Currently, the Postal Service establishes the costs of its products using complex costing
methodologies that have evolved over the last 40 years in response to changing
guidelines from the Postal Regulatory Commission (PRC) and the law. The Postal
Service’s business environment has changed drastically since the Postal
Reorganization Act (PRA) was enacted, with the advent and rapid growth of digital
technologies, such as electronic communication. The Postal Accountability and
Enhancement Act (PAEA) was passed in 2006, 1 changing pricing and performance
reporting requirements for Postal Service products. Among other requirements, the
PAEA requires that competitive products (for example, Express Mail) not be subsidized
by customers of market-dominant products (such as First-Class Mail) and gives the
Postal Service more freedom to establish prices. Also, prices for market-dominant
products can increase but are subject to limits established by the Consumer Price
Index.

To demonstrate compliance with this, the Postal Service uses a combination of data
from manual sampling, statistical systems, and special studies to prepare its annual
Cost and Revenue Analysis (CRA) report, which contributes to the the Regulatory
Reporting and Cost Analysis annual budget of $102 million (in 2010). The CRA report
aids in determining whether the statutory requirements of the PAEA are met.
Information from the CRA report is also used to inform management decisions
regarding Postal Service operations and its network. See Appendix B for a glossary of
Postal Service costing terms used in this report.

Conclusion

Postal Service stakeholders continue to discuss whether the Postal Service’s current
costing methodologies are viable in today’s environment, given the changes in law and
the need for agility in today’s rapidly changing business environment. Some critics have
identified areas in need of improvement: 2



1
 Publication. L. 109-435 (2006).
2
 A Primer on Postal Costing Issues, U.S. Postal Service Office of Inspector General (OIG), Risk Analysis Research
Center (Report Number RARC-WP-12-008, dated March 20, 2012).
                                                         1
Postal Service Product Costing Methodologies                                                         MS-MA-13-002



   Cost of collecting data from manual sampling, statistical systems, and special
    studies.

   Availability of timely cost reporting data.

   High level of costs that cannot be directly attributable to a product — known as
    institutional costs. 3

This report presents the background and history of product costing at the Postal Service
and the current costing methodologies and explores challenges associated with the
current costing system. This report will provide a baseline of information for our second
report benchmarking costing techniques in use by foreign posts and companies in
similar regulated industries — which will explore potential alternatives to the current
costing system in place.

Background

To fully understand how the Postal Service developed its current costing
methodologies, it is helpful to consider relevant background information, such as the
key principles guiding the Postal Service: 4 Specifically, the Postal Service:

   Has a universal service obligation that, although not explicitly stated in law, requires
    the Postal Service to provide affordable service throughout the U.S.

   Has a large network responsibility and must be ready to collect and deliver mail to
    roughly 150 million delivery points daily, in addition to a retail network of more than
    30,000 post offices across the country, both of which carry large fixed costs.

   Is a multiproduct firm with common production. For example, when delivering mail to
    residential or business customers, a Postal Service carrier generally delivers letters
    and packages at the same time, although these products cost different amounts to
    deliver.

   Has both economies of scale and scope. It is cost effective to deliver more mail than
    less and to have all mail delivered by one carrier regardless of mail class. 5

Historically, the Postal Service’s costing requirements stemmed primarily from two laws
– the PRA of 1970 and the PAEA of 2006. Before the PRA, the Postal Service allocated
all costs to different classes of mail. The new regulations enacted under PRA introduced


3
  Costs that cannot be directly attributable to any product and are not variable with product volume. We are not
suggesting that more costs should be attributed to products, but this issue may need to be addressed separately and
costs decreased.
4
  Adapted from Dr. Michael D. Bradley, Product Costing in the Current Economic Environment, August 9, 2012. Also
see RARC-WP-12-008, A Primer on Postal Costing Issues, March 20, 2012.
5
  The classes of mail are Express, Priority, First-Class, Standard, Periodicals, Package Services, Standard Post, and
Special Services.


                                                          2
Postal Service Product Costing Methodologies                                                          MS-MA-13-002



the concepts of attributable and institutional costs – attributable costs are those that can
be related to a specific mail product or service.

The PAEA has a requirement that each market-dominant product cover its attributable
cost and contribute to institutional costs. PAEA also defined workshare discounts6 and
required that they not exceed the costs the Postal Service avoids as a result of
workshare activity except under certain conditions. Table 1 highlights the key legislative
components of the PRA and the PAEA.

                              Table 1: Key Postal Reform Legislation

                                              PRA (1970)                                PAEA (2006)
                                   Rates were to be set high               Postal Service product types
                                   enough to offset costs and              separated into ‘competitive’ and
                                   enable the Postal Service to            market-dominant categories, with
                                   break even.                             separate pricing mechanisms for
                                                                           these two categories.
                                   Required each class of mail
                                   or type of mail service bear            Greater pricing flexibility for
                                   the total estimated costs               market-dominant products.
                                   (direct and indirect)                   Subsidization of competitive
                                   attributable to each                    products by market-dominant
                                   respective class or type of             products was prohibited.
Rate and Costing                   mail plus some portion of all
Characteristics and Key            other costs not attributed to           Each competitive product required
Requirements                       specific classes of mail.               to cover its attributable costs.

                                   Rates were to be fair and               All competitive products shall
                                   equitable.                              collectively cover what the
                                                                           regulator determines to be an
                                                                           appropriate share of the
                                                                           institutional costs of the Postal
                                                                           Service.

                                                                           All market-dominant products are
                                                                           subject to a statutory, consumer
                                                                           price index-based price cap.




6
 Discount in the form of reduced postage provided by the Postal Service to mailers for workshare activities, such as
presorting, pre-barcoding, handling or transporting mail performed by mailers. Generally, the workshare discount
should not exceed the cost the Postal Service avoids as a result of the workshare activity performed by the mailer.




                                                          3
Postal Service Product Costing Methodologies                                                       MS-MA-13-002



                                  Break even mandate                     The Postal Service is permitted to
                                  established to require that            retain revenue that exceeds costs.
                                  “postal rate and fees shall            However, the Postal Service
                                  provide sufficient revenues so         cannot increase prices above the
Postal Service Funding            that the total estimated               Consumer Price Index for market-
                                  income and appropriations . .          dominant products.
                                  .will equal as nearly as
                                  practicable. . .total estimated
                                  costs. . .”
                                  The Postal Rate Commission             Regulator became the PRC which,
                                  was established to set the             among other responsibilities,
                                  rates by holding hearings on           provides oversight using costing
                                  rates proposed by the Postal           data to ensure that key
Role of Regulator
                                  Service.                               requirements described previously
                                                                         are met. Regulator also became
                                                                         arbiter of appropriate cost
                                                                         methodologies.
Source: OIG analysis.

Current Costing Methodologies

The Postal Service prepares the CRA report
annually, as part of the reporting requirements
under PAEA. The PRC uses information in the
CRA report to determine whether the Postal
Service complied with the statutory requirement
that each class or type of mail service bear direct
and indirect costs attributable to that class or
service. The results of the PRC review are
published in the Annual Compliance Determination
Report. 7 Further, the Board of Governors and
Postal Service management use the cost
estimates to evaluate workshare discounts and the
pricing of new products and services.

Costing Principles Used by the Postal Service

As described above, the Postal Service is a
multiproduct firm with a large network and common costs. To determine the cost of a
product, the Postal Service uses Activity-Based Costing (ABC). The first step of ABC
involves dividing general accounting data into cost pools identified by function or type of
resources used; the second step involves attributing costs as volume variable or fixed --
also referred to as institutional costs; and the third step distributes these costs to
individual products, as described in Figure 1.


7
  The PAEA requires the PRC to file the Annual Compliance Determination Report annually. The report primarily
focuses on Postal Service’s financial transparency and compliance with pricing and service performance standards.


                                                        4
Postal Service Product Costing Methodologies                                     MS-MA-13-002



                  Figure 1: Cost Pool Formation, Attribution, and Distribution




Source: OIG analysis.

Cost Pool Formation

The Postal Service uses costs taken from the general ledger accounting records as a
starting point for product costing. General ledger accounts are grouped into 18 active
cost segments. Each cost segment is further divided into cost components (and
sometimes into subcomponents), which form the cost pools. This grouping is necessary
to help determine the volume variable and institutional portion of each cost pool.

Cost Attribution

Once the cost pools are formed, the next phase is cost attribution. Attributable costs
include product specific costs — such as a product’s advertising costs — and volume
variable costs, which vary with the product’s volume. In this step, costs attributed to
each product are assigned and any remaining costs from these cost pools that are not
attributable to products are determined to be institutional costs. The attributable costs
reflect how changes in one factor, such as time taken to process mail, will affect total
mail processing costs.

Cost Distribution

The next step involves distributing costs to individual products and services. For each
product, the attributable costs from each cost segment are added to provide the total
volume variable costs for processing and delivering that product. Next, any product
specific costs are added to the volume variable product costs. This total, divided by its




                                               5
Postal Service Product Costing Methodologies                                                               MS-MA-13-002



volume, provides its unit cost. 8 For example, total Priority Mail costs would be attributed
from various cost segments, such as transportation and city delivery carriers. See
Appendix C for more information on the segregation of volume variable and institutional
portions and the distribution of the attributable costs to products for the 18 cost
segments.

The Role of Statistical Systems

To determine costs, the Postal Service draws data from its accounting system, but this
data does not always provide sufficient information to determine the volume variability of
the various types of costs or to allocate those costs to products. Therefore, the Postal
Service uses statistical systems to assign costs of distinct operations to products.
Examples of statistical systems used to provide additional information include the In-
Office Cost System (IOCS), Transportation Cost System (TRACS), City Carrier Cost
System (CCCS), and Rural Carrier Cost System (RCCS). See Appendix B for further
information on these systems.

Challenges

Postal Service stakeholders continue to discuss whether the Postal Service’s current
costing methodologies are viable in today’s environment, given the changes in law,
trends toward digital technologies, and high costs of manual sampling that characterize
current costing methodologies. Critics have largely pointed to three areas in need of
improvement: the cost of data collection to generate the CRA, high institutional costs,
and the frequency of reporting.

The Cost of Statistical Systems and Studies

The Postal Service spends about $102 million annually to collect and analyze cost,
volume, and revenue data, as well as to monitor negotiated contracts and agreements
and assist in quantifying the impact of managerial decisions regarding postal
operations. This also includes the costs of management and administration of the
statistical programs and preparation of the CRA. Because the Postal Service General
Ledger does not provide information at the mail product and service level, manual
sampling, statistical sampling and special studies are also used to identify costs at this
level. To provide data for these systems, data collectors conduct almost 600,000
manual data collection readings a year.

Prior audit reports have identified potential workhour and monetary savings associated
with automating some data collection activities. For example, in a prior audit report, 9 we
found that, with additional system enhancements, the Postal Service could use data
from mail processing systems to determine the mail processing portion of labor costs for

8
  This total does not include institutional costs. Costs that are not volume variable or product-specific are classified as
institutional costs.
9
  In-Office Cost System Inputs into the Cost and Revenue Analysis Report, (Report Number CRR-AR-12-004), Dated
May 30, 2012.


                                                             6
Postal Service Product Costing Methodologies                                     MS-MA-13-002



products and services. With the proper system changes, the Postal Service could obtain
the census data necessary for mail processing cost determination. This would reduce
dependence on manual data collection and could provide annual net savings of about
$500,000. See Appendix A for prior audits regarding the costs associated with these
methods.

Availability of Timely Cost Reporting Data

Currently, the Postal Service reports costing data annually as part of the annual cost
reporting process. These estimates are calculated annually from a mixture of sampling
systems and automated data. Under the PRC rules issued under the PAEA, the CRA is
filed within 90 days of the end of fiscal year. This period typically includes time for
account reconciliation, audit by external auditors, and additional reviews.

Stakeholders and some management officials are concerned that this data is too stale
to support dynamic management decision making. They have observed that more
timely cost information would support the organization’s need to be more agile. One
suggestion has been to report rolling annual data updated every time a quarter is
completed, which would promote better informed and more timely management
decisions. This would increase visibility into costs and could be helpful, for example,
when establishing prices for negotiated service agreements (NSA) or determining
workshare discounts. However, there may be some limitations associated with rolling
annual data as some processing data and distribution percentages are developed on an
annual basis. Additionally, statistical variation in estimates over the first few quarters of
the year may not be reliable.

Solutions to stakeholder concerns about costing methodologies may require alternative
approaches to these processes. For example, expanding the use of intelligent mail
barcodes on all mailpieces presents an opportunity for the Postal Service to provide
more timely and accurate cost data. Postal Service officials recognize the need to
review other options and requested the second report in this series to assist them in
their work.

High Institutional Costs

Institutional costs are costs that are not allocated or attributed to specific products or
services. As discussed above, during the cost attribution phase, the attributable cost
portions are determined for each cost pool. The remaining portion of costs, which do not
change with changes in volume, constitute institutional costs. One concern with
institutional costs is that they cannot be associated with a specific product or service,
but they affect the organization’s bottom line. For the Postal Service to break even, all
products combined should generate sufficient revenue to cover their costs and provide
contribution margins to cover the institutional costs. Information about the amount of
revenue required from each product to cover institutional costs could enable
management to make better business decisions regarding the product.




                                               7
Postal Service Product Costing Methodologies                                   MS-MA-13-002



In fiscal year (FY) 2011, total accrued costs were about $71 billion and total attributable
costs (costs associated with products) were about $41 billion. Therefore, institutional
costs were about $30 billion (about 42 percent of total costs). Institutional costs varied
from 12.5 percent (Cost Segment 6, City Delivery Carriers, Office Activity) to 100
percent (for Cost Segment 17, Research and Development, and Cost Segment 19,
General Management Systems) within cost segments.




                                               8
Postal Service Product Costing Methodologies                                  MS-MA-13-002



                             Appendix A: Additional Information

Background

This review responds to a request from the chief financial officer and executive vice
president to provide a description of background, history, and current costing
methodologies at the Postal Service. The information presented here provides a
baseline for a second review and report, benchmarking Postal Service costing
methodologies with those at foreign posts and other entities

Objective, Scope, and Methodology

The objective of our review was to describe the background and history of the Postal
Service’s costing methodologies, as well as the Postal Service’s current costing
methodologies. We conducted this review from November 2012 through April 2013 in
accordance with the Council of the Inspectors General on Integrity and Efficiency,
Quality Standards for Inspection and Evaluation. We discussed our observations and
conclusions with management on March 26, 2013, and included their comments where
appropriate.

We assessed the reliability of costing data by reviewing the 2010 and 2011 CRA reports
and having discussions with Postal Service management. We determined that the data
were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

                                                         Final
                                                        Report
          Report Title            Report Number           Date    Monetary Impact
In-Office Cost System Inputs      CRR-AR-12-004        5/30/2012      $429,000
into the Cost and Revenue                                              annually
Analysis Report
Report Results:
With additional system enhancements, the Postal Service could use data from mail
processing systems to determine the mail processing portion of labor costs for
products and services. With the proper system changes, the Postal Service could
obtain the census data necessary for mail processing cost determination. This would
reduce dependence on manual data collection and could provide annual net savings
of about $500,000. The system enhancements would also provide important benefits
to cost control, mail acceptance, and revenue protection. Management agreed with
our recommendations, but did not agree with the cost estimates.




                                               9
Postal Service Product Costing Methodologies                               MS-MA-13-002



                                                      Final
                                                     Report
          Report Title             Report Number      Date          Monetary Impact
Revenue, Pieces, and Weight CRR-AR-12-003           1/27/2012       $12,788,000
Inputs into the Cost and                                            annually
Revenue Analysis Report
The Postal Service could significantly reduce manual data collection for Revenue,
Piece, and Weight estimation by modifying existing automated processes to
collect mailpiece images for analysis and by moving sampling from delivery units
to supporting processing plants. We estimate the Postal Service could save about
$13 million in annual data collection costs. The Postal Service could make the
hardware changes needed with existing technology, which would benefit both
operational needs and statistical sampling efforts. Management agreed with the
recommendations but disagreed with the assessment of the state of automated data
and the cost savings estimate, indicating that the report was misleading.

Transportation Cost System       CRR-AR-11-004 9/19/2011               $980,000
Inputs into the Cost and                                               annually
Revenue Analysis Report
Report Results:
Additional planning, systems design, and system integration could enable the Postal
Service to use more of the data generated by operational systems for CRA cost
attribution purposes. We estimate the Postal Service could save about $980,000 in
annual data collection costs. The Postal Service could make the hardware changes
needed with existing technology which would benefit both operations and statistical
sampling efforts. Management agreed with the recommendations but disagreed with
the assessment of the state of automated data and the cost savings estimate.

Cost and Revenue Analysis           CRR-AR-10-003 7/27/2010                None
Reporting Model
Report Results:
Controls over the development and maintenance of CRA reports were generally
adequate. Specifically, supporting workbooks, formulas, and computer programming
code are incorporated into the CRA model function as intended. The structure of the
CRA model enables verification of data from the source systems against the final
report. In addition, Cost Attribution personnel validate computations and cost
allocations to ensure accuracy and maintain adequate supporting documentation.
However, the Postal Service needs to establish proper access controls to limit file
access to personnel who prepare and maintain CRA reports. In addition, the Postal
Service can further enhance controls by improving CRA process documentation and
following best practices in maintaining computer programming documentation for the
CRA model. Management concurred with our findings and recommendations.




                                               10
Postal Service Product Costing Methodologies                                   MS-MA-13-002




                                                         Final
                                                        Report              Monetary
          Report Title                Report Number       Date               Impact
Legislation Needed to                GAO-11-244T      12/2/2010               None
Address Key Challenges
Report Results:
The Postal Service must modernize and restructure to become more efficient,
control costs, keep rates affordable, and meet changing customer needs. To do so,
the Postal Service needs to become much leaner and more flexible. Key challenges
include: changing use of the mail; compensation and benefit costs that are close to
80 percent of total costs; difficulties realigning networks to remove costly excess
capacity and improve efficiency; constrained capital investment, which has declined
to one of the lowest levels in two decades and led to delays in buying new vehicles;
lack of borrowing capacity when Postal Service reaches its statutory debt limit; and
large unfunded financial obligations and liabilities of roughly $100 billion at the end
of FY 2010. Management generally agreed with the report’s accuracy.

Strategies and Options to           GAO-10-455          4/12/2010             None
Facilitate Progress toward
Financial Viability
Report Results:
The Postal Service may be able to improve its financial viability if it takes more
aggressive action to reduce costs, particularly compensation and benefit costs that
comprise 80 percent of its total costs, as well as increases revenue within its current
authority. However, it is unlikely that such changes would fully resolve the Postal
Service’s financial problems, unless congress also takes action to address
constraints and legal restrictions. Management agreed with the report’s findings.




                                               11
Postal Service Product Costing Methodologies                                    MS-MA-13-002




                                     Appendix B: Glossary

Accrued costs – The dollar amount associated with each category of expenses,
derived from the general ledger for the fiscal year.

Activity-Based Costing – A cost allocation system that compiles costs and assigns
them to activities based on relevant activity drivers. The cost of these activities can then
be charged to products or customers to arrive at relevant allocation of costs than was
available from the accounting systems alone.

Annual Compliance Determination Report – A report published annually by the PRC
to document the Postal Service’s regulatory compliance with the PAEA.

Attributable Costs – Costs associated with provision of service for the products,
including product-specific costs and volume variable costs.

CCCS – An ongoing statistical data collection system that is used to distribute portions
of city delivery costs that are attributable to various products.

CRA Report –The Postal Service’s annual reporting vehicle for determining attributable
costs by product broken down into 18 active cost segments (categories), such as
Purchased Transportation, Rural Carriers, and so forth.

In-Office Cost System (IOCS) – An employee work sampling system used to distribute
labor costs incurred in postal facilities by clerks, mail handlers, city carriers, and
supervisors to products.

Institutional Costs – Costs that are not allocated or attributed to specific products or
services. They do not change with changes in mail volume.

NSA – A customized and mutually beneficial contractual agreement between the Postal
Service and a specific mailer (customer or organization). An NSA provides for
customized pricing, prices, and classifications under the terms and conditions
established in the NSA and may include modifications to current mailing standards and
other postal requirements.

Origin-Destination Information System and the Revenue,
Pieces, and Weight – The primary probability sampling system that estimates revenue,
volume, and weight of mail.

RCCS – A continuous, ongoing statistical study or probability sample of rural carrier
route days.

System for International Revenue and Volume/Inbound – A statistical sampling
system the Postal Service uses to develop revenue, pieces, and weight estimates for



                                               12
Postal Service Product Costing Methodologies                                 MS-MA-13-002



inbound First-Class Mail International and Priority Mail International and to conduct
terminal dues settlements (the charges levied by the destination country to cover the
costs incurred for delivering incoming international mail).

System for International Revenue and Volume/Outbound – A system that provides
country-specific volume estimates to determine terminal dues for delivery of foreign
destinating outbound mail.

TRACS – A statistical sampling and data collection system that provides information to
assign attributable contract transportation costs to products.

Volume-Variability – The proportion by which costs change with respect to volume
changes.

Worksharing – The process by which mailers perform certain mail preparation tasks
and receive a discount for the work they have performed.




                                               13
Postal Service Product Costing Methodologies                                      MS-MA-13-002




                    Appendix C: Attribution and Distribution of Costs

This appendix summarizes each of the 18 active cost segments and their components,
along with their cost attribution and distribution methods. A key principle behind cost
attribution is volume variability — that is, the proportion of costs that change with
respect to volume changes. Costs vary in relation to changes in certain factors such as
volume of mail processed or time taken to process the mail. Distribution of attributable
costs to products is accomplished using distribution keys derived from statistical
systems. The distribution key is a measure of the proportions of the cost driver used by
individual products. In other words, it is a measure of the level of effort required to
process and deliver individual products.

The source of the information in the following tables is the Summary Description of
USPS Development of Costs by Segments and Components Fiscal Year 2011, an
annual summary of the costing approach the Postal Service uses, with special
reference to the CRA report. Each of the tables in this appendix identifies key elements
within a cost segment, including:

   Cost Component – classification element for the first major subdivision of work, or
    cost category within a cost segment.

   Cost Attribution– the process of dividing component costs into attributable and
    institutional portions.

   Cost Distribution - the process of distributing the attributable portion to individual
    postal products and services.




                                               14
         Postal Service Product Costing Methodologies                                             MS-MA-13-002



                                          Cost Segment 1.0 - Postmasters

              Cost Component                               Cost Attribution                    Cost Distribution
1.1 - Postmasters Executive and                  The volume variable costs of           Costs are distributed among
Administrative Step Schedule ( EAS)-23           postmasters EAS-23 and below           mail products and services
and Below - The salaries, benefits, and          are estimated by determining the       based on revenue
related costs of postmasters and district        average change in minimum              relationships determined from
managers/postmasters are covered within          salary of these postmasters due        national Revenue, Pieces, and
this cost segment and estimated from the         to a change in WSC (such as a          Weight (RPW) data.
workload analysis that uses the Expanded         change in the level of activities in
Postmaster Criteria System, which                offices).
evaluates, ranks, and classifies postmaster
positions by an index of the Workload
Service Credits (WSC).
1.2 - Postmasters EAS-24 and Above -             There are no associated volume         There are no volume variable
These postmasters have duties and                variable costs. All costs for this     costs to distribute.
responsibilities that are not significantly      component are classified as
related to the volume of mail flowing            institutional.
through offices that they direct. The salaries
reflect longevity and merit as well as
reporting requirements. Unlike the WSC
used for postmasters EAS-23 and below,
no set of workload evaluation criteria for
evaluating higher-level postmasters is
available.




                                                            15
        Postal Service Product Costing Methodologies                                            MS-MA-13-002



                                 Cost Segment 2.0 Supervisors and Technicians
              Cost Component                              Cost Attribution                  Cost Distribution
2.1 Supervision of Mail Processing -             Accrued costs for first line        Volume variable costs are
These are the costs for first line supervision   supervision of mail processing      distributed to mail products
of mail processing operations. The               activities are volume variable to   and special services in the
workhours and costs for first line               the same degree as the accrued      same proportions as volume
supervision are largely a function of the        costs of mail processing            variable mail processing direct
workhour-related costs of the supervised         personnel in Cost Segment 3         labor costs in Cost Segment 3
activities and supervisory span of control.      (see 3.1).                          (see 3.1).
2.2 Supervision of Window Service - This         Accrued costs for first line        Volume variable costs are
component includes costs for the first line      supervision of window service       distributed to mail products
supervision of window service activities in      activities are volume variable to   and special services in the
Cost Ascertainment Grouping (CAG) A-J            the same degree as costs of         same proportion as volume
post offices.                                    window service clerks in Cost       variable costs of window
                                                 Segment 3 (see 3.2).                service clerks in Cost Segment
                                                                                     3 (see 3.2).
2.3 Supervision of Administrative and            Accrued costs for first line        Volume variable costs are
Support Activities - This component              supervision of personnel and        distributed to mail products
includes costs for the first line supervision    time and attendance activities      and special services in the
of administrative and support clerk activities   are volume variable to the same     same proportion as volume
involving personnel and time and                 degree as costs for the             variable costs of personnel
attendance work. As in the case of mail          personnel and time and              and time and attendance costs
processing supervision, these costs are          attendance part of the              in the administrative and
largely a function of the workhour related       administrative and support          support activities component
costs of the supervised activity.                activities component of Cost        of Cost Segment 3 (see 3.3).
                                                 Segment 3 (see 3.3).
2.4 Supervision of Collection and                Accrued costs for the first line    Volume variable costs for the
Delivery - This component includes               supervision of city delivery        first line supervision of city
separately identified costs for the first line   carriers, rural carriers, and VSD   delivery carriers, rural carriers,
supervision of city delivery carriers, rural     are separately volume variable to   and VSD are distributed to
carriers, and vehicle service drivers (VSD).     the same degree as the costs for    mail products and special
                                                 the supervised delivery service.    services in the same
                                                                                     proportion as volume variable
                                                                                     costs for supervised delivery
                                                                                     service.




                                                          16
        Postal Service Product Costing Methodologies                                            MS-MA-13-002



2.5 Technical Personnel & Other                 Costs for general supervisors of     Costs of general supervisors
Supervisory Activities - This component         mail are volume variable to the      of mail are distributed to mail
includes costs for managers, higher level       same degree as mail processing       products and special services
supervisors, and technical personnel at         costs in Cost Segment 3.1.           in the same proportion as mail
CAG A-J Post Offices, Stations and                                                   processing costs in Cost
Branches, Delivery Distribution Centers         General supervisors of delivery      Segment 3.1.
(DDCs), Processing and Distribution             and collection costs are volume
Centers (P&DC)/ Processing and                  variable to the same degree as       General supervisors of
Distribution Facility (P&DFs), Airport Mail     the composite of costs for           delivery and collection costs
Center(AMC)/Airport Mail Facility(AMFs),        window clerks in Cost Segment        are distributed to mail products
Surface Transfer Centers (STCs),                3.2 and city delivery carriers in    and special services in the
International Service Centers (ISCs),           Cost Segments 6 and 7.               same proportion as the
Logistics and Distribution Centers (L&DCs),                                          composite of volume variable
Network Distribution Centers (NDC)s,            Employee and labor relations         costs for window service in
Remote Encoding Centers(RECs, and               technical personnel costs are        Cost Segment 3.2 and city
Customer Service Districts and for other        volume variable to same degree       delivery carriers in Cost
supervisory activities not included in the      of Postal Service labor in Cost      Segments 6 and 7.
other four components.                          Segments 1 through 12 and a          Employee and labor relations
                                                portion of 18.                       technical personnel costs are
                                                                                     distributed to mail and special
                                                Higher-level supervisor costs are    services similar to Postal
                                                determined by applying a special     Service labor costs in Cost
                                                variability study. Mail processing   Segments 1 through 12 and
                                                training costs are volume            part of 18.
                                                variable to the same degree as
                                                mail processing costs in Cost        Higher-level supervisor costs
                                                Segment 3.1.                         are distributed in the same
                                                                                     proportion as salary costs in
                                                Supervision of miscellaneous         Cost Segments 2 through 12.
                                                clerk activities are volume
                                                variable to the same degree as       Mail processing training costs
                                                the activities supervised.           are distributed similarly to mail
                                                                                     processing in Cost Segment 3

                                                                                     Supervision of miscellaneous
                                                                                     clerk activities are distributed
                                                                                     in the same way as the
                                                                                     activities supervised.




                                                         17
        Postal Service Product Costing Methodologies                                           MS-MA-13-002



                      Cost Segment 3.0 Clerks and Mail Handlers, CAG A-J Post Offices

              Cost Component                               Cost Attribution                 Cost Distribution
3.1 Mail Processing - The mail processing        Mail processing volume variable     IOCS data, partitioned
component encompasses three major                costs by mail product and special   according to the MODS cost
categories of activities: (1) distribution of    service are computed using the      pool definitions, are used to
mail, (2) operations allied to distribution of   “volume variability/distribution    determine the amount of mail
mail, and (3) miscellaneous work. The costs      key” method. Product volume         processing volume-variable
considered in this segment are developed         variable costs are computed for     costs to be distributed to
from certain payroll and related accounts.       each cost pool using employee       subclasses in the cost pool,
Details of these accounts are shown in the       activities reported IOCS. Non-      and to form distribution keys
Fiscal Year 2011 Cost Segments &                 mail processing activities are      for the volume variable costs.
Components Reconciliation to Financial           excluded from the cost pool.
Statements and Account Reallocations             Since mail processing cost pools
pages 3-1 through 3-3. Each of the major         differ in the types of mail being
activity categories, in turn, consists of a      worked, the distribution keys
large number of distinct operations.             used to assign volume variable
                                                 costs to the products of mail and
                                                 special services are also
                                                 computed separately for each
                                                 cost pool. There are 66 mail
                                                 processing cost pools. The total
                                                 cost amounts for these cost
                                                 pools are determined, by using a
                                                 combination of payroll data,
                                                 which records labor costs by
                                                 broad operational groups (Labor
                                                 Distribution Codes, or LDCs),
                                                 and Management Operation
                                                 Data System (MODS)
                                                 workhours, for which finer
                                                 operational detail is available.
3.1.2 Allied Operations - Allied labor           There are various cost pools for    The distribution of these
operations have two principal functions –        allied operations. The method       volume variable costs are
preparing mail for distribution operations in    used to obtain the allied pool      described above in Cost
the plant and processing other mail that         volume-variable costs is as         Segment 3.1. The distribution
may not require handling in piece sorting        described in Cost Segment 3.1.      key formation procedure is
operations                                                                           also similar to Cost Segment
                                                                                     3.1.
3.1.3 Distribution Operations - Some             The total cost amounts for these    The method used to obtain the
distribution work is performed at stations       cost pools are determined, as       pool volume-variable costs
and branches, as dictated by mail flow,          described above in Cost             and distribute those volume-
processing windows, and service                  Segment 3.1 for mail processing,    variable costs to products is as
standards. This distribution work is primarily   by using pay data, which records    described above in Cost
incoming secondary distribution                  labor costs by broad operational    Segment 3.1.
                                                 groups.




                                                          18
        Postal Service Product Costing Methodologies                                           MS-MA-13-002



3.1.4 Miscellaneous Operations - In              There are several activities        Except for Remote Bar Code
addition to sorting and allied operations,       covered by this cost component.     Sorting activities/cost pool, the
clerks and mailhandlers perform numerous         Except for customer service         method used to obtain the pool
additional activities                            support operations cost pools,      volume variable costs and
                                                 the total cost amounts for these    distribute those costs to
                                                 cost pools are determined as        products is as described for
                                                 described in Cost Segment 3.1.      the distribution operations in
                                                                                     Cost Segment 3.1.3.

3.2 Window Service - Window service              Volume variable costs for           Window service volume
activities are in several groups: transactions   window service consist of that      variable costs for certain mail
that involve the acceptance and weighing         portion of accrued costs relating   connected special services
and rating of mail classes, transactions that    to mail connected special           and direct mail are distributed
involve special services, sales of stamps,       services, direct mail, and mixed    to classes and subclasses and
cards, money orders, and stamped                 mail. Also included as volume       special services that
envelopes, the setting of postage meters,        variable are costs for activities   correspond to the activities.
and all other window activities.                 involving money orders and          Costs for mixed mail are
                                                 those portions of the accrued       distributed by basic function.
                                                 costs of window service relating    Volume variable portion of
                                                 to stamp, card, and meter-setting   costs for stamps, cards, and
                                                 activities. Costs for Post Office   meters are distributed are
                                                 box work and window caller work     based on mail volume from
                                                 are also considered volume          RPW. Volume variable
                                                 variable.                           stamped envelope costs are
                                                                                     distributed to stamped
                                                                                     envelope special services.
                                                                                     Volume variable costs for time
                                                                                     waiting for a customer, uniform
                                                                                     allowance costs, and overhead
                                                                                     time costs are distributed in
                                                                                     proportion to the costs
                                                                                     associated with those
                                                                                     services.




                                                          19
        Postal Service Product Costing Methodologies                                           MS-MA-13-002



3.3 Administrative and Support                  Express Mail costs are classified    Claims and Inquiry is
Activities - Accrued costs consist of all       as product specific.                 distributed among mail classes
administrative and support work costs at                                             and special services based on
MODS 1 & 2 facilities, NDCs, and non-           Claims and Inquiry costs are fully   IOCS data.
MODS facilities. Administrative and support     variable and remaining costs
work costs are included for clerks doing        excluding overhead costs are         Personnel and Time and
Express Mail work and performing                classified as institutional.         Attendance costs are
administrative and support work regarding                                            distributed in same proportions
various category groupings of activities and    Personnel and Time and               as labor costs in Cost
activity codes.                                 Attendance costs are volume          Segment 1 through 12.
                                                variable to the same degree as
                                                labor costs in Cost Segment 1        Data Collection and
                                                through 12.                          Processing costs are
                                                                                     distributed based on total mail
                                                Data Collection and Processing       volume.
                                                activities costs are variable to the
                                                same degree as mail processing General Office and Clerical
                                                and city carrier office time costs. activities are distributed in
                                                                                     same proportions as labor
                                                General Administrative and           costs in Cost Segment 2
                                                Clerical activities are variable to  through 12.
                                                the same degree as postal
                                                employee costs.                      Training costs is distributed on
                                                                                     basis of non-training volume
                                                Training costs are volume            variable costs.
                                                variable to the same degree as
                                                non-training costs.                  Quality Control and Revenue
                                                                                     protection is distributed in
                                                Quality Control and Revenue          same proportion as mail
                                                Protection work are variable to      processing city carrier office
                                                the same degree as mail              direct labor time.
                                                processing product-specific costs
                                                relating to international claims     Other Miscellaneous activities
                                                and inquiry.                         are distributed as they are
                                                                                     identified in IOCS.
                                                Auditing and Accounting
                                                activities are considered            Overhead administrative costs
                                                institutional.                       are distributed in same
                                                                                     proportions as other support
                                                Overhead time costs are volume costs.
                                                variable to the same degree as
                                                other administrative and support
                                                costs.




                                                         20
         Postal Service Product Costing Methodologies                                           MS-MA-13-002



                                 Cost Segment 4.0 Clerks, CAG K Post Offices-

             Cost Component                              Cost Attribution                   Cost Distribution
4.1 CAG K Clerks - Work includes sorting        Volume Variable costs consist of     Volume variable costs for mail
incoming mail, providing Post Office box        the accrued costs for mail           connected special services
and general delivery services, separating       processing and window service        and direct mail are distributed
letter and nonletter mail, cancelling postage   work, regarding mail connected       to special services and the
stamps, wrapping mail, dispatching              special services, mail in the form   classes of mail represented by
outgoing mail, separation for destinations,     of direct mail, and mixed mail.      the activities. Costs for mixed
and providing window services, etcetera.        Costs for overhead are volume        mail are distributed to classes
                                                variable to the same degree as       by basic function in the same
                                                all other costs.                     proportions as costs for direct
                                                                                     mail. Costs distributed to mail
                                                                                     classes and special services
                                                                                     are further distributed to mail
                                                                                     products and special services
                                                                                     based on the Cost Segment
                                                                                     3.1.




                                                          21
          Postal Service Product Costing Methodologies                                           MS-MA-13-002



                              Cost Segment 6.0 City Delivery Carriers, Office Activity

              Cost Component                               Cost Attribution                  Cost Distribution
6.1 In-Office Direct Labor - Carrier in-          Volume variable costs for city      City delivery carrier in-office
office work consists of a variety of activities   carrier in office direct labor      volume variable costs for mail
whose specifics depend on the individual          activity consist of the costs for   connected special services
route. Office time on delivery routes is          regular letter routes, and          and direct mail are distributed
primarily devoted to sequencing mail for          combination, parcel post,           to the products represented by
delivery.                                         collection, Express Mail, Inter-    their activity codes. Costs for
                                                  City/Station, and Vertical          mixed-mail are distributed by
                                                  Improvement Mail( VIM) routes       basic function.
                                                  associated with the activity
                                                  codes for direct mail handling
                                                  and mixed mail. Also included
                                                  are costs for carriers serving
                                                  these route types involving mail
                                                  connected special services work
                                                  and all other non-specified
                                                  routes.
6.2 In-Office Support - In-office support         Overhead in-office support costs    Volume variable overhead
costs comprise two categories: “overhead”         are volume variable to the same     in-office support costs are
and “other.” Overhead support costs               degree as in-office direct labor    distributed to products in the
include all costs for personal time and           costs.                              same proportions as volume
moving empty equipment. Overhead                                                      variable in-office direct labor
support costs also include the costs of           Other in-office support costs are   costs. Other in-office support
clocking in and out, training, obtaining mail     volume variable to the same         costs are distributed in the
and keys, checking and preparing vehicles,        degree as the aggregate of Cost     same proportions as Cost
and attending safety meetings to the extent       Segment 6.1 above and Cost          Segments 6.1, 7.1, and 7.2.
these costs cannot be assigned to specific        Segments 7.1(Network Travel)
route types. The "other" support costs            and 7.2. (Delivery Activities).
support both office and street activities.




                                                            22
         Postal Service Product Costing Methodologies                                          MS-MA-13-002



                            Cost Segment 7.0 City Delivery Carriers, Street Activity

             Cost Component                              Cost Attribution                  Cost Distribution
7.1 Network Travel - Network travel time is     Because all costs are classified    There are no volume variable
the time spent by carriers traveling their      as institutional, there are no      costs to distribute.
route unrelated to volume.                      volume variable costs in this
                                                component.
7.2 Delivery Activities - Includes the time     Volume variable costs are           Regular letter delivery
spent driving or walking between customer       developed via analyses of two       activities on route sections are
stops within the section, preparing the mail    parts. Determining volume           distributed to products on the
at the vehicle or while walking, the time       variable costs of parcel and        basis of proportions of
accessing stops, and the time spent putting     accountable delivery time by        delivered pieces. The
mail into customer receptacles. This also       analyzing how delivery time         proportions are developed
includes time spent on retraces to deliver      changes in response to changes      using the CCCS volume data.
deviation parcels and accountables,             in volume, and determining          Separate distributions of
deviation delivery travel time, and time        volume variable costs of            volume variable costs for
spent collecting mail at street collection      delivering mail to customers on     letters, flats, regular parcels,
boxes.                                          route sections by analyzing how     and sequenced mail are made
                                                delivery time responds to           to products on the basis of
                                                changes in mail volume.             these CCCS proportions.
                                                                                    Costs made to products within
                                                Product-Specific Costs –            periodicals are made on the
                                                non-volume variable costs           basis of national volume
                                                associated with Express Mail        relationships determined from
                                                collection boxes are product        RPW data.
                                                specific to Express Mail.
7.3 Delivery Support - The Delivery             Volume variable costs - accrued     Volume variable delivery
Support component includes the cost pools       delivery support cost for regular   support costs for regular letter
for travel to/from route and relay.             letter delivery and special         delivery and special purpose
                                                purpose delivery are split into     delivery are distributed to
                                                volume variable and institutional   products in the same
                                                in the same proportions as their    proportions as their respective
                                                respective costs are divided        delivery activities costs.
                                                between delivery activities and
                                                network travel.




                                                          23
         Postal Service Product Costing Methodologies                                            MS-MA-13-002



                                 Cost Segment 8.0 Vehicle Service Drivers (VDS)

               Cost Component                              Cost Attribution                  Cost Distribution
8.1 VSD - This is salaries and benefits paid     Volume Variability Costs - VSD       Costs of VSD labor are
for VSD labor. VSDs provide transportation       costs was developed from a           distributed to products in the
and loading/unloading service for postal         cross-sectional analysis of          same proportions as Intra-
facilities and their activities include a        FY 1993 VSD workhour usage           Sectional Center Facility
diversity of driving and other services. Their   and VSD workload components.         highway contract costs (see
primary transportation activities include        The sources of the data for this     Cost Segment 14.1 for
inter-station pickup and delivery, airport       analysis were: (1) a FY 1993         Highway).
runs, delivery to firms, parcel and relay        survey of plant and distribution
deliveries, and street and building              facilities that used VSDs and (2)
collections.                                     Postal Service Forms 4533
                                                 Motor Vehicle Schedule, which
                                                 contains route and scheduling
                                                 data. A volume variability
                                                 estimate was developed from a
                                                 regression model for 49 facilities
                                                 identified in the survey.




                                                           24
          Postal Service Product Costing Methodologies                                          MS-MA-13-002



                                          Cost Segment 10.0 Rural Carriers

               Cost Component                              Cost Attribution                 Cost Distribution
10.1 Evaluated Routes - Each evaluated           The volume variable costs of        Volume variable costs for
rural carrier is paid a salary determined by     rural carrier workhours are         evaluated route and other
the evaluated time for his or her route. The     determined from a variability       route are distributed in a two
evaluated time is developed based on route       analysis developed in               step procedure. Because the
factors such as route length; boxes served;      accordance with the evaluated       National Rural Mail Count
the volume of letters, flats, parcels, and box   time and factors of workload for    provides data by mail shape
holders delivered.                               the most recent route evaluation    but not by product, these
                                                 for each rural route from the       distributions are based on
                                                 National Rural Mail Count. This     proportions obtained from the
                                                 is a four step procedure.           RCCS.
10.2 Other Routes - The costs of rural           The volume variable costs of        Volume variable costs for
carriers other than evaluated route carriers     rural carrier workhours are         evaluated route and other
are included in the "other routes”               determined from a variability       route are distributed in a two
component. These carriers serve routes in        analysis developed in               step procedure. Because the
either of two classifications: Auxiliary - "A"   accordance with the evaluated       National Rural Mail Count
routes or Mileage - "M" routes.                  time and factors of workload for    provides data by mail shape
                                                 the most recent route evaluation    but not by product, these
                                                 for each rural route from the       distributions are based on
                                                 National Rural Mail Count. This     proportions obtained from the
                                                 is a four-step procedure.           RCCS.
10.3 Equipment Maintenance - Equipment           Volume variable costs - there are   There are no volume variable
Maintenance Allowance (EMA) is paid              no associated volume variable       costs to distribute.
when carriers use their own vehicles.            costs. The costs of this
Carriers receive a minimum allowance that        component are classified as
increases on a mileage basis for routes          institutional.
exceeding 40 miles. Certain routes with a
large number of stops in relation to the
number of miles receive a supplemental
allowance.




                                                           25
         Postal Service Product Costing Methodologies                                          MS-MA-13-002



                            Cost Segment 11.0 Custodial and Maintenance Services

             Cost Component                             Cost Attribution                   Cost Distribution
11.1 Custodial Services - Custodial             Volume variable costs - because     Custodial services costs are
services costs include the costs of Postal      these costs tend to vary with the   distributed to classes of mail,
Service personnel responsible for the           amount of space involved, they      products and special services
cleaning and protection of service facilities   are developed in the same           in the proportions described in
and the costs of contractually procured         manner and are determined to        section for space support
cleaning services. These space support          be variable to the degree           costs (see Cost Segment
costs are incurred to provide secure, well      described in space support costs    15.2).
kept working environments.                      (see Cost Segment 15.2).
11.2 Operating Equipment Maintenance -          Volume variable costs - costs for   Costs for mail processing
Costs are for the maintenance of mail           maintenance of mail processing      equipment maintenance labor
processing equipment and various types of       equipment are volume variable       are distributed in the same
Postal Service equipment other than mail        to the same degree as the costs     proportions as IOCS tallies of
processing equipment, such as computers         of those operating the              mail processing labor for 17 of
and window service equipment.                   equipment.                          the 22 individual equipment
                                                                                    categories in recognition of the
                                                Point of Service (POS) One          related equipment usage.
                                                maintenance is volume variable      There are other distribution
                                                as window service labor. See        methods for the remaining five
                                                Cost Segment 3.2. Other             equipment types. POS One
                                                operating equipment is classified   maintenance is distributed in
                                                as institutional.                   proportion to window service
                                                                                    labor (see Cost Segment 3.2).
11.3 Plant and Building Equipment               Volume variable costs - variable    Building equipment costs are
Maintenance - Space support costs for           to the same degree as described     distributed to classes of mail,
building equipment maintenance are for the      for space support costs (see        products and special services
maintenance of such items as elevators,         Cost Segment 15.2).                 in the proportions described
and heating and air conditioning systems.                                           for space support costs (see
                                                                                    Cost Segment 15.2).




                                                          26
         Postal Service Product Costing Methodologies                                            MS-MA-13-002



                                     Cost Segment 12.0 Motor Vehicle Service

               Cost Component                             Cost Attribution                    Cost Distribution
12.1 Personnel - This component covers           The subcomponent shares for          City Delivery Vehicles - letter
the costs of personnel who perform vehicle       personnel costs are derived          routes costs are distributed in
maintenance work at vehicle maintenance          using the Vehicle Management         the same proportions as city
facilities. Vehicle maintenance is essentially   Accounting System (VMAS).            letter carrier route costs in
dependent on the miles of vehicle use or         VMAS compiles local vehicle          Cost Segment 7.
hours of vehicle operation.                      acquisition and maintenance
                                                 cost data records from all vehicle   City Delivery Vehicles - special
                                                 maintenance facilities each          purpose routes costs are
                                                 accounting period.                   distributed in the same
                                                                                      proportions as costs for city
                                                 City Delivery Vehicles - letter      delivery carrier special
                                                 routes vehicle maintenance           purpose routes in Cost
                                                 costs are variable to the same       Segment 7.
                                                 degree as letter route labor costs
                                                 in Cost Segment 7.                   Rural Delivery Vehicles costs
                                                                                      are distributed in same
                                                 City Delivery Vehicles – special     proportions as costs for rural
                                                 purpose routes costs are             carriers in Cost Segment 10.
                                                 variable to the same degree as
                                                 special purpose route labor costs    Vehicle Service Vehicles costs
                                                 are in Cost Segment 7.               are distributed in same
                                                                                      proportion as costs of VSD in
                                                 Rural Delivery Vehicles costs are    Cost Segment 8.
                                                 variable to the same degree as
                                                 rural carrier salary costs.

                                                 Vehicle Service Vehicles costs
                                                 are variable to the same degree
                                                 as vehicle service driver costs.
                                                 Other Vehicles costs are
                                                 institutional.
12.2 Supplies and Materials - The costs in       Accrued costs for the six            Volume variable costs for the
this component are for supplies and              subcomponents are determined         six subcomponents are
services used in vehicle maintenance work        to be volume variable in the         distributed to products in the
performed by motor vehicle service               manner described for the costs       manner described for the costs
personnel                                        of the corresponding personnel       of the corresponding
                                                 subcomponents in Section 12.1..      personnel subcomponents in
                                                                                      Section 12.1.




                                                           27
         Postal Service Product Costing Methodologies                                        MS-MA-13-002



12.3 Vehicle Hire - Costs covered by this       City Delivery Vehicles - Letter   City Delivery Vehicles - Letter
component are for rental of privately owned     Routes - are volume variable to   Routes - Volume variable
and General Services Administration (GSA)       same degree as the costs of the   costs of the individual delivery
vehicles and exclude equipment                  corresponding individual          functions are distributed to
maintenance allowances paid to rural            components in Cost Segments 6     products in the same
carriers for use of their vehicles              and 7.                            proportions as the volume
                                                                                  variable costs of the
                                                Vehicle Service Vehicles -        corresponding individual
                                                Accrued costs are volume          components in Cost Segments
                                                variable to the same degree as    6 and 7.
                                                the costs of VSD in Cost
                                                Segment 8.                        Vehicle Service Vehicles - are
                                                                                  distributed to products in the
                                                Other vehicles costs are          same proportions as the
                                                considered institutional.         volume variable costs of VSD
                                                                                  in Cost Segment 8.




                                                          28
         Postal Service Product Costing Methodologies                                            MS-MA-13-002



                              Cost Segment 13.0 Miscellaneous Local Operations

               Cost Component                             Cost Attribution                    Cost Distribution
13.1 Contract Stations - Contract stations      Volume Variable Costs -               There are no volume variable
are a special kind of small office operated     Because the costs of this             costs to distribute.
by a nonpostal individual under a contract      component are classified as
with the Postal Service. These stations sell    institutional, no accrued costs
stamps and accept mail at times and places      are volume variable.
convenient to the public and provide
services similar to the window service
available at postal stations, branches, and
smaller post offices.
13.2 Carfare, Drive-out, Tolls and              Car fare and drive-out                Volume variable costs of
Ferriage - This component covers the costs      agreements are considered             carfare and drive out are
of carfare, drive out agreements, and tolls     variable to the same degree as        distributed to products of mail
and ferriage. Carfare and drive out             the costs of city delivery carrier    and special services in the
agreements are made with city delivery          foot routes. Thus, they are           same proportions as the
carriers and postmasters for reimbursement      volume variable based on the          volume variable costs of the
of certain transportation expenses.             costs developed for city delivery     corresponding individual city
                                                carriers (Cost Segments 6 and         delivery carrier components in
                                                7). Costs of tolls and ferriage are   Cost Segment 6 and 7.
                                                classified as institutional.
13.3 Federal Reserve and Commercial             Volume Variable Costs - Federal       There are no volume variable
Banks - Federal Reserve Banks process           Reserve and commercial banks          costs to distribute.
the redemption of Postal Service bonds.         services are classified as
Commercial banks maintain bank accounts         institutional. Retail and Credit
for Postal Service offices throughout the       Card Fees are volume variable
country.                                        based on the costs developed for
                                                window service (Cost Segment
                                                3.2).
13.4 Employee Awards - Employee                 Volume Variable Costs -               There are no volume variable
awards are related to the performance of        Because the costs of this             costs to distribute.
individuals rather than to the volume of        component are classified as
mail. They primarily reflect management         institutional, no accrued costs
decisions for improving morale and              are volume variable.
efficiency.
13.5 Mail Equipment Shop - The Mail             Volume Variable Costs -               There are no volume variable
Equipment Shop (MES) located in                 Because the costs of this             costs to distribute.
Washington, DC, is operated by the Postal       component are classified as
Service to manufacture mailbags and             institutional, no accrued costs
related locks, keys, and miscellaneous          are volume variable. However, a
hardware. Their costs are related primarily     portion of the costs for the MES
to security standards governing the design      is product specific to
of the equipment rather than the volume of      International Mail.
mail.
13.6 CAG L Rental Allowance -                   Volume Variable Costs -               There are no volume variable
Postmasters at CAG L post offices are           Because the costs of this             costs to distribute.
reimbursed for facilities used for Postal       component are classified as
Service business                                institutional, no accrued costs
                                                are volume variable.



                                                          29
         Postal Service Product Costing Methodologies                                       MS-MA-13-002



13.7 Other Local Operations - The               Volume variable costs - because   There are no volume variable
remaining costs in this segment are             the costs of this component are   costs to distribute.
personnel costs for purchasing field service    classified as institutional, no
centers and facilities field offices.           accrued costs are volume
Purchasing field service centers are            variable.
responsible for such matters as vehicle hire
and maintenance contracting, food service
and cleaning services contracting, and
supply management. Facilities Field Offices
are responsible for matters such as facility
planning, engineering specifications, and
the acquisition and disposition of owned
and leased properties.




                                                         30
        Postal Service Product Costing Methodologies                                             MS-MA-13-002



                                        Cost Segment 14.0 Transportation
              Cost Component                             Cost Attribution                     Cost Distribution
14.1 Domestic Transportation - Domestic         Costs are developed separately         Passenger Air - costs are
air transportation consists of the air          for domestic air transportation        distributed to products on the
conveyance of mail throughout the               into the following categories:         basis of pounds obtained from
50 states and U.S. territories by scheduled     Commercial Air, FedEx, UPS,            the TRACS.
commercial air carriers, network shared         Christmas, Alaska and Hawaii,
capacity contract arrangements, and air taxi    and Air Taxi. All costs are            FedEx - costs are distributed
operators. Mail is carried on commercial        considered fully volume variable.      based on cubic-feet obtained
airlines as well as shared network contracts                                           from TRACS.
with Federal Express (FedEx) and United
Parcel Service (UPS) which provide                                                     UPS - costs are distributed
transportation between high-volume cities.                                             based on pounds obtained
                                                                                       from TRACS.

                                                                                       Holiday - costs are distributed
                                                                                       based on two step process
                                                                                       involving weight on tags.

                                                                                       Alaska and Hawaii - costs are
                                                                                       distributed based on pound-
                                                                                       miles developed by special
                                                                                       studies.

                                                                                       Air Taxi - costs based on
                                                                                       composite of costs for other
                                                                                       domestic air categories other
                                                                                       than Alaska non-preferential
                                                                                       air.
14.1.2 Highway Transportation - divided         Volume variabilities are               Cost Distributions are based
in eight categories: Intra-Sectional Center     developed for each of the              on data developed using
Facility( SCF), Inter-SCF, Intra-NDC, Inter-    categories. For five categories        TRACS data.
NDC, plant load, contract terminal and van      variabilities are developed by
damage, empty equipment, and Alaskan            regressing contract annual cost
highway. All categories are procured from       against annual contract cubic
individual firms under similar contracts that   foot miles of capacity and route
prescribe general conditions of                 length.
transportation service.
14.1.3 - Railroad Transportation -              Costs are developed separately         Cost distributions are based
includes conveyance by freight train and        for three categories: freight train,   on data developed using
related terminal services.                      plant load, and empty                  TRACS data and a study of
                                                equipment. Variability costs are       plant load mail.
                                                developed by regressing contract
                                                costs against cubic foot miles
                                                and route length. Plant load and
                                                empty equipment vary to the
                                                same degree as freight train
                                                costs.




                                                         31
        Postal Service Product Costing Methodologies                                          MS-MA-13-002



14.1.4 - Water Transportation - consists of     Costs for inter-city line haul      Inter-city line haul costs are
inter-city conveyance in some mainland and      transportation and that portion     distributed in the sample
lake locations and offshore conveyance          associated with offshore services   proportions as intra-SCF
between the continental U.S. and Puerto         are fully volume variable.          highway contract costs, and
Rico and Hawaii.                                The costs of rural features, box    offshore transportation costs
                                                delivery and pickup service are     are distributed in same
                                                classified as institutional.        portions as inter-NDC highway
                                                                                    and freight rail costs.
14.2 International Transportation               Volume variable costs of            The development and
                                                international transportation are    distribution of volume variable
                                                obtained from various general       costs for international
                                                ledger (GL) accounts. Costs for     transportation is not described
                                                transporting military mail are      in this document.
                                                obtained from GLA.
                                                Reimbursements for those costs
                                                from the Department of Defense
                                                are obtained from GLA.




                                                         32
         Postal Service Product Costing Methodologies                                            MS-MA-13-002



                                      Cost Segment 15.0 Building Occupancy

             Cost Component                             Cost Attribution                    Cost Distribution
15.1 Rents - This segment covers                Volume variable costs - the          Mail Processing - costs for
expenses for renting and leasing facilities     variable costs of space-related      each category is distributed
(space provision); fuel and utilities (space    building occupancy are               based on the corresponding
support); communications services; and          developed through analysis of        labor cost pool distribution in
improvement of facility related working         the space occupied by each           Cost Segment 3.
conditions.                                     functional operation and the
                                                volume-related characteristics of    Lobby - costs for window
                                                the underlying work activities.      service space are distributed
                                                                                     to classes of mail, products
                                                Volume variable space provision      and special services in the
                                                costs for rents are based in part    same proportions as the costs
                                                on current market rental costs,      of window service in Cost
                                                which reflect economic costs         Segment 3.
                                                such as interest expense and
                                                depreciation expense.               Mail Delivery Space - costs for
                                                                                    mail delivery space are
                                                Consideration of the market         distributed to classes of mail,
                                                rental costs results in these costs products and special services
                                                being fully volume variable.        in the same proportions as the
                                                                                    respective salary costs of city
                                                                                    delivery carriers in Cost
                                                                                    Segments 6 and 7 and rural
                                                                                    carriers in Cost Segment 10.

                                                                                     Administrative and Support -
                                                                                     volume variable costs for mail
                                                                                     processing equipment main-
                                                                                     tenance space are distributed
                                                                                     to classes of mail, products
                                                                                     and special services in the
                                                                                     proportions described in Cost
                                                                                     Segment 11.
15.2 Fuel and Utilities - Fuel and utility      Fuel, utility, and other space       Volume variable fuel and
costs are incurred mainly for various           support costs are apportioned        utilities costs are distributed to
heating fuels, electricity, and water. If       among the 71 categories on the       classes of mail, products and
design factors and related considerations       basis of relative square footage     special services in the same
are held constant, then fuel, utility, and      of space usage.                      proportions as volume variable
other space support costs will vary with                                             space provision costs
facility space requirements.                    Variability for each category of     described in Cost Segment
                                                space is generally the same as       15.1.
                                                the labor working in that space or
                                                has been established in past
                                                studies.




                                                          33
         Postal Service Product Costing Methodologies                                       MS-MA-13-002



15.3 Communications and Other                   Because the costs of this         There are no volume variable
Expenses - These space related building         component are classified as       costs to distribute.
occupancy expenses include such items as        institutional, no accrued costs
telephone and telegraphic services, Postal      are volume variable.
Service equipment and operations moving
expenses, and non-capitalized facility
improvements.




                                                          34
         Postal Service Product Costing Methodologies                                         MS-MA-13-002



                                    Cost Segment 16.0 Supplies and Services

             Cost Component                              Cost Attribution                 Cost Distribution
16.1 Stamps and Accountable Paper -             The costs associated with the      The costs of money orders are
The costs of this component are incurred        procurement of postage stamps,     directly distributed to that
for procurement of postage stamps, money        money orders, and stamped          special service. The costs
orders, stamped cards, embossed stamped         cards are fully volume variable.   associated with stamped cards
envelopes, aerogrammes, migratory bird          The costs of miscellaneous         and envelopes are directly
hunting and conservation stamps, and            philatelic items and migratory     distributed to those special
miscellaneous philatelic items.                 bird hunting and conservation      services. The remaining
                                                stamps are subtracted from the     volume variable costs are
                                                accrued costs.                     distributed to classes of mail,
                                                                                   products and special services
                                                                                   in the same proportions as the
                                                                                   volume variable portion of
                                                                                   window service costs for
                                                                                   stamp sales. See Cost
                                                                                   Segment 3.2 above.
16.2 Supply Personnel - The supply              The costs of supply center         There are no volume variable
center maintains and distributes to smaller     personnel are classified as        costs to distribute.
post offices the numerous supplies, forms,      institutional, no accrued costs
and items of equipment used by these            are volume variable.
offices.
16.3 Other Supplies and Services - Costs        Custodial and Building Supplies    Custodial and Building
are grouped into six subcomponents for          and Services - Variable to the     Supplies and Services - are
classification analysis: custodial and          same degree as Cost Segment        distributed in the proportions
building supplies and services, equipment       15.2., space support costs.        described in Cost Segment
supplies and services, other miscellaneous                                         15.2.
supplies and services, advertising, and non-    Equipment Supplies and
mail related products.                          Services - Variable to the same    Equipment Supplies and
                                                degree as personnel cost that      Services are distributed in
                                                use the equipment in Cost          proportions described in Cost
                                                Segment 11.2., processing          Segment 11.2.
                                                equipment.
                                                                                  Other Miscellaneous Supplies
                                                Other Miscellaneous Supplies      and Services are distributed
                                                and Services - variability is     for specific products.
                                                decided on a case by case basis.
                                                                                  Advertising - are distributed as
                                                Advertising - Costs for specific  product-specific and not
                                                products are product specific and volume variable costs.
                                                other advertising costs are
                                                institutional.                    Non-Mail Related Products -
                                                                                  are not distributed
                                                Non-Mail Related Products - are
                                                classified as institutional.




                                                          35
        Postal Service Product Costing Methodologies                                         MS-MA-13-002



                                Cost Segment 17.0 Research and Development

             Cost Component                               Cost Attribution                 Cost Distribution
17.1 Research and Development -                 Volume Variable Costs -             There are no volume variable
Expenditures incurred primarily for             Because the costs of this           costs to distribute.
developmental efforts to improve mail           component are classified as
processing technology, construction             institutional, no accrued costs
engineering, and field industrial               are volume variable.
engineering.

                           Cost Segment 18.0 Administration and Area Operations

              Cost Component                              Cost Attribution                  Cost Distribution
18.1 Administration Personnel - These           Costs relating to handling of       Protection force costs are
administration personnel costs reflect the      money orders and international      distributed in proportions
national and area costs of managing             mail are subtracted and             described in Cost Segment
ongoing postal operations.                      classified as product specific.     15.1.
                                                Remaining costs are institutional
                                                Inspection Service Protection
                                                Force are volume variable as
                                                described in 15.1. for space
                                                support costs. All remaining
                                                Inspection Service personnel
                                                costs are institutional.
18.2 Administration Support - These             These costs are classified as       Costs for commission on non-
costs include supplies and services used by     institutional                       U.S. money orders are
the personnel in this segment and                                                   distributed to international
miscellaneous expenses.                                                             money orders. All other costs
                                                                                    are institutional.
18.3 Personnel Benefits - Corporate-wide        Prior year workers'                 Accrued repriced annual
personnel benefits that are not reported by     compensation costs, prior year      leave, holiday leave
employee category.                              portion of annuitant health and     adjustments, current-year
                                                earned Civil Service Retirement     workers' compensation costs,
                                                System (CSRS) pensions, Post        unemployment compensation,
                                                Office Department and Office of     current-year portion of
                                                Worker's Compensation health        annuitant health and earned
                                                benefits, and prior year portion    CSRS pensions, and annuitant
                                                annuitant life insurance benefits   life insurance benefits costs
                                                costs, and annuity protection       are distributed to the same
                                                costs are classified as             degree as postal labor costs.
                                                institutional




                                                         36
         Postal Service Product Costing Methodologies                                       MS-MA-13-002



                               Cost Segment 19.0 General Management Systems

               Cost Component                             Cost Attribution               Cost Distribution
19.1 Maintenance Technical Support              Volume Variable Costs -           There are no volume variable
Center (MTSC) - The MTSC performs two           Because the costs of this         costs to distribute.
activities related to the maintenance of all    component are classified as
postal equipment except motor vehicles: it      institutional, no accrued costs
provides technical support to postal facility   are volume variable.
maintenance personnel and establishes
maintenance standards for new types of
postal equipment.
19.2 Supplies and Services - The training       Volume Variable Costs -           There are no volume variable
related activities include non-Postal Service   Because the costs of this         costs to distribute.
personnel who prepare courses and instruct      component are classified as
at the Postal Service Management                institutional, no accrued costs
Academy and the Postal Service Technical        are volume variable.
Center and training supplies such as
textbook and audiovisual materials.




                                                          37
          Postal Service Product Costing Methodologies                                            MS-MA-13-002



                           Cost Segment 20.0 Other Accrued Expenses (Service-Wide)

              Cost Component                                Cost Attribution                  Cost Distribution
20.1 Equipment Depreciation - Mail                Mail Processing equipment            Costs are distributed on the
processing equipment includes delivery            depreciation costs are variable to   basis of IOCS tallies for the
barcode sorters, facer/cancellers, flat           the same degree as costs for the     operation of 17 of 22 types of
sorting machines, and other equipment             personnel that operate the           equipment. POS ONE
used in distribution. Other equipment             equipment; and are based on the      depreciation is distributed in
depreciation includes costs for depreciation      mail processing labor costs pools    proportion to window service
of customer service and postal support            shown in Cost Segment 3.1 POS        labor in Cost Segment 3.2.
equipment such as window service                  One depreciation is volume
equipment and computers.                          variable as window service labor
                                                  in Cost Segment 3.2.
20.2 Vehicle Depreciation - Costs are for         Depreciation costs are volume        Motor vehicle depreciation
the depreciation of motor vehicles owned          variable by vehicle category to      costs are distributed to classes
by the Postal Service and are not                 the same degree as the costs of      of mail, products and special
considered city carrier, rural carrier, vehicle   city delivery carrier street         services in the same
service driver, or other vehicle.                 functions in Cost Segment 7,         proportions as the costs of
                                                  rural carriers in Cost Segment       individual city delivery carrier
                                                  10, and VSD in Cost Segment 8.       street functions in Cost
                                                  Costs for other vehicles are         Segment 7, rural carriers in
                                                  institutional.                       Cost Segment 10, and VSD in
                                                                                       Cost Segment 8.
20.3 Building and Leasehold                       Volume variable space provision      Volume variable space
Depreciation - The depreciation of                costs for building and leasehold     provision costs for building and
buildings owned by the Postal Service and         depreciation are developed as        leasehold depreciation are
leasehold improvements made by the                described in Cost Segment 15.1.      distributed in proportions
Postal Service to buildings it leases.                                                 described in Cost Segment
                                                                                       15.1.
20.4 Indemnities - Covers costs of                Indemnity costs are fully volume     Domestic mail indemnities are
indemnities and uninsured claims and write-       variable. Uninsured claims and       distributed to Express Mail and
offs.                                             write-offs are institutional.        the registry, insurance, cash
                                                                                       on delivery, special services
                                                                                       on the basis of an analysis of
                                                                                       domestic claims
                                                                                       disbursements for each. The
                                                                                       costs of international mail
                                                                                       indemnities are distributed to
                                                                                       International Express Mail,
                                                                                       registry and insurance
                                                                                       categories on the basis of a
                                                                                       similar analysis.




                                                            38
         Postal Service Product Costing Methodologies                                            MS-MA-13-002




20.5 Interest Expense - Costs incurred          Volume variable costs for             Facility-related interest is
mainly as a result of borrowing money and       facilities related interest expense   distributed as described in
for payments on retirement liabilities.         is based on current market rental     Cost Segment 15.1.
                                                cost and facility space
                                                variabilities. The variability for
                                                these costs is determined in the
                                                same fashion as rental costs in
                                                Cost Segment 15.1. Retirement
                                                and miscellaneous interest are
                                                institutional.
20.6 Other Expenses and Credits -               These costs are classified as         There are no volume variable
Covers costs for a number of cost and           institutional                         costs to distribute.
credit categories that are broadly grouped




                                                          39
